OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/PHILIPPINES’
PRIVATE SECTOR
MOBILIZATION FOR
FAMILY HEALTH PROJECT,
PHASE II

AUDIT REPORT NO. 5-492-13-005-P
MARCH 25, 2013




MANILA, PHILIPPINES
Office of Inspector General


March 25, 2013

MEMORANDUM

TO:                USAID/Philippines Mission Director, Gloria D. Steele

FROM:              Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:           Audit of USAID/Philippines’ Private Sector Mobilization for Family Health Project,
                   Phase II (Report No. 5-492-13-005-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft version and have included them in their entirety in
Appendix II of this report.

This report contains nine recommendations to help the mission improve the efficiency and
effectiveness of its program. Based on information the mission provided in its response to the
draft report, we determined that final action was taken on Recommendations 1, 2, 6, 7, and 9.
We acknowledge that management decisions have been reached on Recommendations 3, 4, 5,
and 8. Please provide the Audit Performance and Compliance Division of USAID’s Office of the
Chief Financial Officer with evidence of final action to close the open recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




 U.S. Agency for International Development
 PNB Financial Center, 8th Floor
 Roxas Blvd. 1308 Pasay City
 Metro Manila, Philippines
 http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 4

     Monitoring and Evaluation Plan and Data Were Weak .......................................................... 4

     Insufficient Training Outreach Limited the Project’s Impact ................................................... 6

     Project Disbursements Exceeded Approved Limit ................................................................. 8

     Delayed USAID Response Hindered Project’s Progress ....................................................... 8

Other Matter ............................................................................................................................ 10

Evaluation of Management Comments.................................................................................. 11

Appendix I—Scope and Methodology ................................................................................... 13

Appendix II—Management Comments .................................................................................. 15
SUMMARY OF RESULTS
As part of its ongoing support to the Philippine Health Department, in 2004 USAID/Philippines
launched the 5-year Private Sector Mobilization Project for Family Health, implemented by
Chemonics International Inc. Its purpose was to mobilize the private sector to deliver health
services by focusing on providing family planning and maternal and child health-care services in
the workplace, introducing new, low-cost contraceptives, and increasing the number of
accredited midwives running successful practices.

Five years later, in October 2009, USAID/Philippines signed a 5-year, $34.9 million task order
contract also with Chemonics International to implement Phase II of the project. The objective
of Phase II is to help the public sector engage and mobilize private sector resources in
delivering family planning and maternal and child health services and products—differing from
the first phase in that it engages the private sector through the public sector rather than working
with them directly. As of January 6, 2013, the mission had obligated $23.3 million and
disbursed $18.9 million for the project.

To achieve the objective, the project is charged with:

1. Increasing and sustaining private sector provision of family planning and maternal and child
   health services and products.

2. Increasing the use of family planning and maternal and child health services and products
   from the private sector.

3. Improving policies for the private sector by providing the government technical assistance
   on licensing and accrediting private sector providers of health services and products.

The objective of the audit was to determine whether the project was achieving its objective. We
determined that it was doing so only partially and that it might not have the impact intended by
the mission.

The project has contributed to the development of 30 national policies supporting private sector
provision of products and services—meeting the overall target in just 3 years. Fifty-four more
local governments have issued their own policies supporting similar objectives. Although this
number exceeds the target of 36, the realism of the target is questionable (page 4). This policy
support contributed to an increase in the use of modern contraceptive methods1 provided by the
private sector from 40.8 percent in 2006 to 53.8 percent in 2011.2

To expand the number of private sector providers, the project trained midwives to be trainers.
According to the Cebu chapter of the midwives association, six of its members were certified by
the Department of Health to conduct family planning training with project assistance. Receiving
this training contributes toward eligibility for accreditation as service providers under the


1
  Modern contraceptive methods include female and male sterilizations, pills, injectables, intrauterine
devices (IUDs), and male condoms. Data on contraceptive use come from the 2003 and 2008
demographic and health surveys.
2
  Philippine National Statistics Office, 2006 and 2011 Family Planning Surveys.


                                                                                                     1
Philippine Health Insurance Corporation (PhilHealth).3 With accreditation, the government can
reimburse midwives for their services, which increases both access to services by the poor and
the economic viability of the midwives’ private practices. The association president said the six
members had already conducted four courses for local midwives.

Despite these positive results, the net effect on modern contraceptive use has been negligible.
The proportion of married women using modern contraceptives, whether from a public or private
sector source, increased only 1 percentage point—from 35.9 percent in 2006 to 36.9 percent in
2011. Moreover, the unmet need for family planning in the same group of women increased
from 15.7 percent to 19.3 percent during the same period.

The audit disclosed the following problems:

    The monitoring and evaluation (M&E) plan and data were weak (page 4). The mission did
    not approve the project’s plan until almost the third year of implementation. Even after
    approval, key activities were not being captured, and several performance indicators track
    progress that was not clearly attributable to project efforts.

    Insufficient training outreach limited the project’s impact (page 6). Gaps in service delivery
    indicate clusters of stakeholders without the support needed to develop the sustainable
    family planning and maternal and child health services envisioned by the project.

    Project disbursements exceeded the approved limit (page 8). The contractor exceeded
    three major budget line items without approval, resulting in questioned costs.

    The mission’s slow response hindered progress (page 8). Because the mission was slow to
    respond to project needs, implementation of key activities was delayed.

The audit team also concluded that the plan for implementing the project’s revised workforce
strategy might not be adequate (page 10).

The report recommends that USAID/Philippines:

1. Modify the project’s monitoring and evaluation plan to include performance indicators that
   sufficiently reflect the intended accomplishments of each part of the project. Performance
   indicators measuring accomplishments not clearly attributable to the project’s efforts should
   be removed (page 6).

2. Direct its contractor to determine baseline data for indicators included in the monitoring and
   evaluation plan, and update performance targets as appropriate (page 6).

3. After revising the project monitoring and evaluation plan and correcting reported results,
   assess the quality of reported data (page 6).

4. Amend Mission Order 203-1 to more explicitly direct all contracting officer’s representatives
   and agreement officer’s representatives (CORs and AORs) to conduct data quality
   assessments for their projects to (1) verify that data collected on each indicator meet all five

3
 PhilHealth is a tax-exempt, government-owned and controlled corporation attached to the Department of
Health that provides universal health coverage for the country.


                                                                                                    2
   quality standards referenced in Automated Directives System (ADS) 203.3.11.1 and (2) test
   the data’s accuracy and consistency (page 6).

5. Amend Mission Order 203-1 to require the Program Office to evaluate data quality
   assessments submitted by CORs/AORs for completeness, and document the results. The
   office should return assessments it considers inadequate for additional work (page 6).

6. Require the contractor to implement a strategy extending training to all target areas
   (page 8).

7. Determine the allowability of $737,676 in questioned costs and recover from Chemonics
   International Inc. any amounts determined to be unallowable (page 8).

8. Implement written procedures to shorten the response time to action requests and
   documents submitted by the contractor for approval (page 9).

9. With the contractor, determine the feasibility of implementing a strategy to conduct
   workforce outreach to the remaining 23 target areas, and, if feasible, implement the strategy
   (page 10).

Detailed findings follow. The audit scope and methodology are described in Appendix I. Our
evaluation of management comments is included on page 11, and the full text of management
comments appears in Appendix II.




                                                                                              3
AUDIT FINDINGS
Monitoring and Evaluation Plan and
Data Were Weak

According to ADS 203.3.4, missions must develop an M&E plan “to measure progress towards
planned results and identify the cause of any delays or impediments during implementation.”
ADS 203.3.4.3 requires the project monitoring plan to (1) include indicators to monitor each
level of the project results, and (2) provide a precise definition, baselines, and targets for each
indicator.

ADS 203.3.11.1 states that data must be valid, precise, and reliable to be useful for
performance monitoring. Despite these requirements, M&E plans were weak, and the data in
them were not useful because they were not valid, precise, or reliable.

Plan Weaknesses. Besides missing indicators, the plan had irrelevant indicators, missing and
flawed baselines, and missing targets.

   Missing indicators. An M&E plan must include indicators for each level of the project results
   (such as outputs and related outcomes). Some project activities, however, did not have
   indicators to determine their accomplishments. Examples include (1) training-of-trainer
   efforts to facilitate accreditation of Department of Health-certified trainers, (2) outreach to
   workforce groups to increase their awareness of and access to family planning products,
   and (3) outreach through educational institutions to increase fertility awareness among
   young people.

   Irrelevant indicators. Several indicators were not linked clearly to project efforts, such as the
   number of infants exclusively breastfed for the first 6 months, the number of women who
   make four antenatal care visits, and the number of cases of child diarrhea treated. The
   project did not implement activities to encourage these specific actions. According to
   mission officials, these indicators were included to help report on higher level, portfolio-wide
   health indicators for the mission’s health office.

   Missing and flawed baselines. Every performance indicator in the M&E plan must have a
   baseline value at the beginning, along with targets that are ambitious but achievable in the
   stated time frame. Few baselines were established, however, making it difficult to determine
   the extent of the project’s impact. Some targets also do not appear to have been
   ambitiously set. For example, Number of [local governments] issuing new policies
   supporting private sector provision of family planning services has an overall target of 36,
   which is comparable to the 36 areas that the project focused on. More than half, however,
   are provinces with multiple local governments contained in them. Thus, the reported result
   of 54 local governments (50 percent greater than the overall target) is not as impressive as it
   first appears.

   Missing targets. Many indicators did not establish any targets for the first 2 years even
   though results were reported during this period, and that inflates the comparison of project
   achievements with the overall targets. This occurred because the M&E plan was not



                                                                                                  4
   approved until almost 3 years into implementation and the contractor did not want to
   establish targets until the indicators were approved.

Data Weaknesses. For relevant indicators, performance data for several were not valid,
precise, or reliable because the indicators were not defined clearly.

   The 40 midwives whom the contractor reported as accredited/accreditable—an outcome
   indicator demonstrating the effect of project training and other technical assistance efforts in
   PhilHealth accreditation—was not accurate because only 4 were actually accredited. By
   reporting both accredited and accreditable midwives together, the contractor makes it
   impossible for the mission to determine what is depressing the number accredited and
   respond accordingly. The remaining midwives submitted their applications for accreditation
   (as is required to be considered accreditable), but around two-thirds of them have been
   waiting more than twice the expected 3 months for approval—some closer to four times the
   expected period.

   Three indicators that track training in family planning, reproductive health, and maternal and
   newborn health overlap.

   1. Number of people trained in family planning and reproductive health
   2. Number of trained providers for permanent and long acting methods
   3. Number of people trained in maternal and newborn health

   Because the first is so broad, all of the reported providers trained in the second indicator
   were also counted in the first, resulting in double-counting beneficiaries. In addition, a
   training course defined in the approved M&E plan whose results contribute to the
   third indicator was tracked and reported under the first indicator (to which it does not relate).

   Furthermore, the first indicator includes people who have participated in training not related
   to family planning or reproductive health. It also includes the number of people trained in
   gender-based violence issues, which is included in the definition of a different indicator.

   The indicator Number of people reached by gender-based violence services includes not
   only people trained to detect instances of gender-based violence, but also people who have
   received basic counseling or medical treatment as a result of such violence. These very
   different results were combined into one measurement that is not helpful to management in
   determining the success of such activities.

Late approval of the M&E plan contributed to its weaknesses, and poorly defined indicators
contributed to the lack of clarity in reporting expectations. Another factor in the results reporting
was insufficient data quality assessments. Mission Order 203-1, issued in October 2011, states
that CORs are responsible for conducting assessments for all indicators to confirm data validity,
integrity, precision, reliability, and timeliness. The mission order calls for the completed
assessments to be submitted to the Program Office, which maintains the official files.

The technical office responsible for the project interpreted the mission order as requiring an
assessment for the entire Health Office portfolio, which contains several projects, rather than for
each individual project.

While USAID missions are not required to conduct assessments of data they do not report to
Washington, common sense would indicate a need to confirm the quality of data that feeds into


                                                                                                   5
such information. OIG noted this inadequacy in assessing data quality in the review of another
of the mission’s programs.4 Therefore, it seems appropriate to address this issue mission-wide.

The ability to make decisions based on project results becomes impaired when monitoring tools
like the M&E plan do not represent the results adequately. We therefore make the following
recommendations.

    Recommendation 1. We recommend that USAID/Philippines modify the project’s
    monitoring and evaluation plan to include performance indicators that sufficiently reflect
    the intended accomplishments under each of the project’s result areas. Performance
    indicators measuring accomplishments not clearly attributable to the project’s efforts
    should be removed.

    Recommendation 2. We recommend that USAID/Philippines direct the contractor in
    writing to determine baseline data for indicators included in the monitoring and
    evaluation plan, and update performance targets as appropriate.

    Recommendation 3. We recommend that USAID/Philippines, after revising the project
    monitoring and evaluation plan and correcting reported results, assess the quality of
    reported data.

    Recommendation 4. We recommend that USAID/Philippines amend Mission Order
    203-1 to more explicitly direct all contracting officer’s representatives and agreement
    officer’s representatives to conduct data quality assessments for their projects to
    (1) verify that data collected on each project indicator meet all five quality standards
    referenced in ADS 203.3.11.1 and (2) test the data’s accuracy and consistency.

    Recommendation 5. We recommend that USAID/Philippines amend Mission
    Order 203-1 to require the Program Office to evaluate assessments submitted by
    contracting officer’s representatives and agreement officer’s representatives for
    completeness and document the results. The office should return assessments it
    considers inadequate for additional work.

Insufficient Training Outreach
Limited the Project’s Impact
Part of the project’s implementation strategy calls for strengthening the capacity of midwives to
provide IUD insertion services or be able to provide related counseling if such services are
unavailable at their clinics. In addition, the contract calls for supporting an increased number of
sustainable accredited midwife clinics that provide health services—an accreditation acquired
after meeting training requirements, among other things.

For the first 1.5 years of implementation, project staff conducted orientations and assessments
to determine the family planning and maternal and child health needs in the 77 target areas
throughout the country. To meet the needs identified, and to satisfy the project’s contractual

4
  “Review of USAID/Regional Development Mission for Asia’s Coral Triangle Support Partnership,”
(Report No. 5-493-12-001-S), July 12, 2012. Although this review is addressed to USAID’s Regional
Development Mission for Asia in Thailand, USAID/Philippines played a material role in managing the
regional program’s activities within the Philippines including conducting a data quality assessment.


                                                                                                  6
requirements, the contractor supported the rollout of several training courses, already
developed by the Department of Health, to targeted beneficiaries. Four of these courses have
greater significance to the project’s needs:

1. Family Planning, Level 1. This course provides training in contraceptive technology, clinic
   management, and basic counseling skills for informed choice of modern contraceptives.
   Target audiences are midwives seeking accreditation in the PhilHealth system and nurses.

2. Family Planning, Level 2. This course provides skills in the provision of long-term and
   permanent family planning methods including IUD insertion and removal (for midwives
   seeking accreditation) and bilateral tubal ligation and vasectomies (for doctors).

3. Essential Intrapartum and Newborn Care and the Active Management of the
   Third Stage of Labor. This course provides improved post-delivery skills to midwives and
   nurses, and contributes to their eligibility for PhilHealth accreditation.

4. Field Health Services Information System. This course teaches health practitioners from
   private midwife clinics and hospitals how to participate in the public sector recording and
   reporting system by providing data to local governments.

After 31 months of implementation, the mission cut the number of target areas from 77 to 36,
recognizing that the original number was overly ambitious. At that point, more than half of the
eliminated areas had never received training, and none had received training in providing long-
term family planning methods, with the exception of one doctor trained in bilateral tubal ligation.

Even with only 36 target areas, training coverage remains weak. As shown below in Table 1,
which addresses four of the project’s more significant training topics, fewer than half of target
areas had received Level 2 family planning training or training in the third stage of labor and
newborn care. The area of greatest accomplishment—training in contributing data to the field
health services information system—reached only 75 percent of its target areas.

                  Table 1. Training Accomplishments as of September 2012
                                                                                    Percent of
                                                                Target Areas
                                              Number of                            Target Areas
            Type of Training                                     Receiving
                                            People Trained                          Receiving
                                                                  Training
                                                                                     Training
Family Planning Level 1                            312                24                66
Family Planning Level 2
    IUD insertion                                   50                 3                  8
    Bilateral tubal ligation                        23                10*                28
    Vasectomy                                        1                 1                  3
Essential Intrapartum and Newborn Care
                                                                           †
and the Active Management of the Third             188                14                 39
Stage of Labor
Field Health Services Information System           487                27                 75
*
 Twenty-three doctors completed this training.
†
  Eleven people were trained in six of these areas (averaging less than two per area). The other eight
areas had an average of 22 people trained.

In addition to the low geographical coverage, we were unable to determine the proportional
coverage of the number of people trained because no definitive strategy was available to



                                                                                                    7
compare current progress. For example, the Field Health Services Information System training
was provided in 75 percent of the target areas, but we could not determine whether the
487 people trained were from 500 or 5,000 who were available.

The absence of a definitive strategy for extending these trainings to every target area and
determining the desired number of participants reached contributed to this shortfall, as did
ambiguously defined performance indicators to monitor the project’s progress in these areas.

Without a clear strategy to ensure sufficient training coverage of the targeted priority areas, the
impact of project interventions will not be as strong as expected. Impact measures may also
become increasingly difficult to attribute to the project’s activities. We therefore make the
following recommendation.

   Recommendation 6. We recommend that USAID/Philippines require the contractor to
   implement a strategy extending training to all target areas.

Project Disbursements Exceeded
Approved Limit
The contract stipulates that the contractor shall not transfer costs between the major budget line
items without the contracting officer’s written approval. The contractor, however, did just that.

In August 2012, the contractor submitted a contract modification request that included a
realignment of major budget line items in response to unanticipated events. The contracting
officer said she told the contractor that approval would be delayed until after the end of the fiscal
year (September 30, 2012), but time constraints and other pressing needs kept the mission from
responding to the request through the conclusion of audit fieldwork in mid-December 2012.

Meanwhile, the contractor continued to spend project funds despite not receiving approval to
realign the budget. As a result, project disbursements related to three major budget line items
have exceeded the approved limit by approximately $737,676. Without modification, the terms
of the contract have been exceeded, and the amounts in excess of the allowable expenditures
may be considered unallowable. We therefore make the following recommendation.

   Recommendation 7. We recommend that USAID/Philippines determine the allowability
   of $737,676 in questioned costs and recover from Chemonics International Inc. any
   amounts determined to be unallowable.

Delayed USAID Response Hindered
Project’s Progress
Per ADS 203.3.11.1, the data quality standard relating to timeliness states that data should be
timely enough to influence management decision making. Good sense indicates that
management needs to provide timely responses to requests for approvals or guidance from
project implementers to support efficient performance.

In addition, the mission’s performance monitoring responsibilities include making sure that the
M&E plan meets contractual requirements and verifying that activities fit before approving the
plan.



                                                                                                   8
The mission’s responses to approval requests have not been timely. According to the contract,
the contractor was to submit an M&E plan with expected results, performance indicators,
baseline data, and annual targets that the mission would use to monitor progress. The
contractor submitted an initial plan in April 2010, but said the mission never responded to it or
provided feedback.

Mission officials said the previous COR and the project’s previous chief of party agreed to
establish the plan after the project’s inception workshops—consultations meant to identify key
family planning priorities—were completed, although no documentation of this agreement was
available and waiting for inception workshops to finish was not necessary for plan development.
The contractor submitted a second version of the plan in March 2011—a year later—and
received USAID’s comments in December 2011. In response to the comments, the contractor
made revisions and submitted a third version in February 2012. The mission approved this
version of the M&E plan in June 2012, 31 months after the project began.

The mission also took too long to approve the project’s grants manual. The mission must
approve the manual, which specifies each party’s responsibilities throughout the grant cycle,
before grants can be awarded under the project. The mission did not approve the manual until
February 2011, approximately 1.5 years into implementation, and the first grant was awarded
3 months later. A mission official said this delay occurred because the previous contracting
officer was confused about whether he needed to approve the manual.

Because of the delayed approval, project grants were not issued as early as expected. As of
October 2012, only approximately $477,500 of the planned $2.2 million (or 22 percent) of the
approved grant funding budget had been disbursed—60 percent of the way through the project.

The mission’s delayed response time in approving the contractor’s documents and requests has
hindered the project’s ability to determine progress and respond accordingly. Additional delays
could diminish the anticipated impact. We therefore make the following recommendation.

   Recommendation 8. We recommend that USAID/Philippines implement written
   procedures to shorten the response time to action requests and documents submitted by
   the contractor for approval.




                                                                                               9
OTHER MATTER
The audit team concluded that the contractor’s plan for implementing the revised workforce
strategy sets the bar too low. The workplace initiatives component of the project aimed to
increase support for family planning and maternal and child health services in the formal
employment sector by developing models for workplace-based services and implementing them
in companies throughout the project’s target areas.

USAID questioned this approach, however, because of the risk that overzealous employers
might exert undue influence on employees’ family planning decisions (increasing the risk of
Tiahrt Amendment violations).5 As a result, this effort was put on hold until a more viable
strategy could be developed.

To address this potential problem, the mission recently approved a new approach to work
through the informal sector by using unions and cooperatives. This approach appears to be a
viable alternative to working directly with employers and presents a good opportunity to reach
people who may not already be aware of family planning options or other maternal and child
health services they may need—a workforce approach as opposed to a workplace approach.

The audit noted, however, that the contractor anticipates rolling out this strategy to only 13 of
the project’s 36 target areas, which would cover slightly more than a third of the already-
reduced geographical territory. Mission officials said these areas were selected because the
contractor already has relationships with workforce groups there.

The audit team believes that establishing such relationships in the other 23 target areas would
not require a significant increase in the current implementation workload and could provide
initial gains for future family planning education efforts. If the project does not extend this
outreach to these areas, the increase in use of family planning and maternal child health
services and products would likely be less than anticipated. We therefore make the following
recommendation.

    Recommendation 9. We recommend that USAID/Philippines work with the contractor to
    determine the feasibility of implementing a strategy to extend workforce outreach to the
    remaining 23 target areas, and, if feasible, implement the strategy.




5
  The Tiahrt Amendment applies to family planning service delivery projects to which USAID provides
assistance. It prohibits service providers from implementing, or being subject to, quotas of total number
of births, number of people who use the services, or who adopt a particular family planning method.


                                                                                                      10
EVALUATION OF MANAGEMENT
COMMENTS
OIG has reviewed the mission’s response to the draft report. Based on information the mission
provided in its response, we determined that final action has been taken on Recommendations
1, 2, 6, 7, and 9. We acknowledge that management decisions have been reached on
Recommendations 3, 4, 5, and 8. Our evaluation of comments is below.

In response to Recommendation 1, the project’s M&E plan was modified to include performance
indicators that reflect the intended accomplishments under each of the project’s results areas
sufficiently. Selected indicators that are not directly measuring project efforts were removed.
The mission approved the modified plan on March 12, 2013. Final action has been taken on
this recommendation.

In response to Recommendation 2, the mission directed the contractor to determine baseline
data for indicators included in the M&E plan and update the performance targets as appropriate.
The baseline data and updated performance targets have been included in the revised plan,
which was approved March 12, 2013. Final action has been taken on this recommendation.

In response to Recommendations 3 and 4, the mission agreed in principle with the
recommendations, but felt they were overly broad. The mission stated that data quality
assessments were required for indicators that are reported to Washington, while it is only
suggested for indicators judged to be important for mission decision making.

The related audit finding (on page 4) already clarified this point, while also highlighting the need
to confirm the quality of data for results that are reported separately, but still contribute to
Washington-level accomplishments. Further, Mission Order 203-1 states that CORs and AORs
are responsible for conducting data quality assessments for all indicators to confirm data
validity, integrity, precision, reliability, and timeliness. Accordingly, we do not feel the
recommendation is overly broad.

The mission plans to address Recommendation 3 by conducting a data quality assessment on
indicators that are reported to Washington or are judged important for project management. In
addition, the mission plans to address Recommendation 4 by amending the details of Mission
Order 203-1 to be more explicit with the responsibilities for CORs and AORs. Management
decisions were reached. Final action will be taken when the mission conducts the assessment
and approves the revised order, which are both expected to take place by December 31, 2013.

In response to Recommendation 5, the mission will revise Mission Order 203-1 to improve the
effectiveness of data quality assessment procedures. A management decision has been
reached. Final action will be taken when the mission approves the order, which requires the
Program Office to evaluate data quality assessments for completeness and to document the
results. This action is expected to take place by December 31, 2013.

In response to Recommendation 6, the mission advised the contractor to complement the
training focus of helping the Centers for Health Development establish training systems with
direct assistance in training private providers to expedite expansion to all sites. The project will



                                                                                                 11
use short-term technical assistance and issue grants to qualified organizations to facilitate
private providers’ access to training. Final action has been taken on this recommendation.

In response to Recommendation 7, the contracting officer approved a budget modification on
January 10, 2013, which modified the contract and realigned the budget. The contracting officer
also has allowed the costs questioned during the audit. Final action has been taken on this
recommendation.

In response to Recommendation 8, the mission plans to issue an administrative notice to remind
agreement officers, contracting officers, and their respective representatives of their duty to
provide timely responses to requests for approvals from contractors and grantees. Office chiefs
are tasked with monitoring compliance with those responsibilities. A management decision has
been reached. Final action will be taken when the mission issues the administrative notice,
which is expected to take place by May 31, 2013.

In response to Recommendation 9, the mission has determined that it is not feasible for the
subcontractor responsible for implementing workforce activities to initiate work where they did
not yet have relationships or familiarity. Instead, direct technical assistance is provided by the
project rather than relying solely on the subcontractor. According to the mission, the project has
directly engaged informal workforce groups in 7 of the 23 sites not covered by the subcontractor
as of February 2013. The mission is in the process of identifying informal workforce partners in
the other sites. Final action has been taken on this recommendation.




                                                                                               12
                                                                                           Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether Phase II of USAID/Philippines’ Private
Sector Mobilization for Family Health Project was achieving its main goal of developing a
sustainable private sector market for family planning products and maternal and child health
products and services. To implement the project, USAID awarded a $34.9 million task order
contract with Chemonics International, covering a 5-year period from October 30, 2009, through
October 29, 2014. As of January 6, 2013, cumulative obligations and disbursements under the
project totaled $23.3 million and $18.9 million, respectively. Because this was a performance
audit looking at project implementation rather than specific financial transactions, the audit team
did not focus on auditing the $18.9 million in disbursements.

In planning and performing the audit, the audit team assessed management controls related to
management review, proper execution of transactions and events, and use of performance
targets and indicators. Specifically, we assessed the following significant controls:

     Project work plans for fiscal years 2010 through 2012
     Certification required under the Federal Managers’ Financial Integrity Act of 19826
     Project contract and modifications
     Reported results
     Financial reports
     Data quality assessments

The audit was performed in the Philippines from November 13 through December 14, 2012. In
that period, the audit team conducted site visits to observe project activities and interview
project participants as well as implementer staff. The audit covered reported results from the
inception of the project on October 1, 2009, through September 30, 2012.

Methodology
To determine whether the project was achieving its main goals, we initially interviewed key staff
at USAID/Philippines and at the contractor’s office, both in Metro Manila, to gain an
understanding of the project, the key players and their roles and responsibilities, and the
reporting procedures and controls for monitoring the project. Additional work to answer the
audit objective entailed interviews with government officials from the Department of Health at
the regional and provincial levels. We also conducted site visits to interview public and private
health providers and their clients.

6
    Public Law 97–255, as codified in 31 U.S.C. 3512.


                                                                                                  13
The audit included site visits to 7 of the 36 target areas—Cagayan de Oro City, Cebu City,
Mandaue City, Lapu-Lapu City, Cebu Province (Danao City and municipality of Consolacion),
Bohol Province (Tagbilaran City), and Pampanga Province (San Fernando City, Angeles City
and municipality of Mabalacat). During these visits, we interviewed stakeholders from the public
and private sector involving health providers such as midwives, doctors, and nurses, as well as
local and regional government officials, and local volunteer health-care workers. The audit also
performed limited testing to validate reported results for selected performance indicators
through substantive testing and analytical procedures.

To determine the reliability of computer-processed data related to the project’s reported
activities, we selected a judgmental sample of training events and outcome-related
measurements (as a result of the training and other technical assistance) in the database. We
chose these because of how effectively they represented the project’s progress and perceived
risk of manipulation of data. Based on the audit procedures performed, we considered the
computer-processed data used during the audit to be reliable, though several of the reported
results proved unreliable because of conflicting documentation or imprecisely defined figures.

We established a materiality threshold of 85 percent to assess the test results. For example, if
at least 85 percent of tested results data reported under a specific performance indicator were
supported adequately, we concluded that the reported results were reasonably accurate.




                                                                                             14
                                                                                      Appendix II



MANAGEMENT COMMENTS


                                                                      [Received March 14, 2013]

MEMORANDUM


TO:             William S. Murphy
                Regional Inspector General/Manila

FROM:           Gloria Steele /s/
                Mission Director, USAID/Philippines

SUBJECT:        Audit of USAID/Philippines’ Private Sector Mobilization for Family Health
                Project, Phase II (Report No. 5-492-13-00X-P)

REFERENCE: Draft Audit Report No. 5-492-13-00X-P


The Mission would like to thank the Regional Inspector General (RIG)/Manila for its
professionalism and thoroughness during the performance audit of USAID/Philippines’ Private
Sector Mobilization for Family Health Project, Phase II. In response to the referenced draft audit
report No. 5-492-13-00X-P, we are hereby providing our responses to the nine
recommendations under the subject audit.

Recommendation 1. We recommend that USAID/Philippines modify the project’s
monitoring and evaluation plan to include performance indicators that sufficiently
reflect the intended accomplishments under each of the project’s result areas.
Performance indicators measuring accomplishments not clearly attributable to the
project’s efforts should be removed.

The Mission concurs with this recommendation and has modified the project’s monitoring and
evaluation plan to include performance indicators that sufficiently reflect the intended
accomplishments under each of the project’s result areas and to remove selected indicators that
are not directly measuring project efforts. USAID/Philippines (Contracting Officer’s
Representative and Mission Monitoring and Evaluation Specialist) and staff from Private Sector
Mobilization for Family Health Phase II Project (PRISM2) have worked together over the last
several months to revise the project’s monitoring and evaluation plan. The revised plan was
submitted on March 11, 2013 and has been reviewed and approved by the COR (Attachment
1). Below is a summary of the changes that were made.

Indicators that have been added to more sufficiently reflect intended accomplishments:


                                                                                               15
1. In order to sufficiently capture project efforts to increase awareness of and access to
   family planning among the workforce, an indicator has been added which measures the
   number of informal workforce groups (such as associations of tricycle drivers, vendors,
   cooperatives, etc) implementing family planning activities as a result of the project.

2. An indicator on the number of educational establishments and other groups
   implementing family planning activities as a result of the project has been added to track
   the project’s work with young people.

3. PRISM2 will also track the number of people trained who become certified master
   trainers.

Indicators that have been removed or modified to more accurately reflect project efforts

4. The indicator on exclusive breastfeeding has been changed to more accurately capture
   project activities. Specifically, the “Number of infants exclusively breastfeed in the first 6
   months” has been changed to: the “Number of postpartum women who initiate
   breastfeeding within 1 hour of delivery.” The encouragement of immediate and exclusive
   breastfeeding is an important component of the PRISM2’s Project. PRISM2’s efforts in
   training and quality assurance provide multiple opportunities for private midwives to
   enhance their ability to encourage immediate and exclusive breastfeeding. The Quality
   Assurance Package for Midwives, developed by PRISM2 and approved for use by the
   Department of Health, provides the latest guidance and recommendations related to
   maternal and child health services, including immediate and exclusive breastfeeding.
   PRISM2 also supports the training of midwives on Family Planning Competency Based
   Training Level 1 which includes a discussion of the lactational amenorrhea method
   (LAM). Finally, the Essential Intrapartum Newborn Care (EINC) package for midwives
   includes skills and a clinical protocol to enhance immediate and exclusive breastfeeding
   of newborns. For the reasons mentioned above, the Mission will retain an indicator on
   breastfeeding. However, we acknowledge that the influence of midwives is primarily in
   the newborn period and that it was difficult for the project to measure exclusive
   breastfeeding to six months as many mothers do not routinely bring their children in at
   that age. The revised indicator is well aligned with project activities and is more realistic
   to measure.

5. The indicator “Number of cases of child diarrhea treated in USG-assisted programs” has
   been dropped, since the PRISM2 project does not have any interventions focusing
   directly on improving health seeking behavior or treatment practices. Zinc treatment is a
   critical tool for treating diarrheal episodes among children in the developing world. This
   safe, effective, and inexpensive treatment option can lead to significantly less severe
   diarrhea in children and may help prevent future episodes. PRISM2 does have specific
   activities to contribute to increasing the availability of zinc:

           PRISM2 facilitated the introduction of dispersible zinc, which is the only WHO-
           compliant tablet formulation available in the Philippine market. This product
           reduces the duration of diarrhea episodes among children that were treated with
           zinc and strengthens their immune system.

           PRISM2 assisted in the inclusion of dispersible zinc in the Philippine National
           Drug Formulary (PNDF) as an essential drug for the treatment of diarrhea. The


                                                                                                    16
            PNDF is the reference guide of LGUs in procuring medicines. Only those
            products in the PNDF can be procured by LGUs.


            PRISM2 has increased the availability of zinc in the market through increasing
            the number of sales distribution points. The zinc supplies were not only made
            available among the public health facilities but also through dispensing doctors,
            private midwives trained on CDD and commercial drugstores.

    Availability of zinc is already being measured in the PMP through the indicator “Sales
    volume of USG-assisted MCH products”. This indicator is being retained.

6. The Mission will retain the “Number of pregnant women with at least four antenatal care
   visits.” Several activities contribute to this indicator and we feel it is still relevant. First,
   PRISM2 trains midwives on antenatal care, which is one of the contents of the Family
   Planning Competency-based Training and Quality Assurance Package trainings.
   Midwives who have been trained provide information and education to women in their
   community about the importance of antenatal care and the importance of the first visit
   during the first trimester of pregnancy. More importantly, they were trained to actually
   provide quality antenatal care for pregnant women.

Other significant changes made to respond to specific findings in the audit report:

7. The target for the indicator “Number of LGUs issuing new policies supporting private
   sector provision of family planning services” has been revised to capture changing
   circumstances. The assumption when the project began was that only the provincial
   government would be issuing new policies. However, through ongoing implementation,
   PRISM2 became aware that the municipal governments are also issuing new policies to
   support private sector provision of family planning. Given this change, PRISM2 has set
   higher, more ambitious, targets.

8. Under the original M&E plan, several different training programs were grouped together
   and reported under “Number of people trained on family planning/reproductive health
   (FP/RH) with USG funds.” Under the revised plan, each training activity has a separate
   indicator to enable tracking of each type of training.

9. In the revised PMP, the indicators “Number of private practice midwives becoming
   Philhealth accredited and accreditable as a result of USG-assistance” and “Number of
   private facilities becoming Philhealth Maternity Care Package accredited or accreditable“
   have been explicitly disaggregated by status (accreditable or accredited). In addition,
   we can provide an update that as of February 2013, there were 22 providers accredited
   and another 65 accreditable.

10. The finding that the “Number of people reached by USG-funded intervention providing GBV
    services” includes not only individuals trained to detect instances of gender-based violence,
    but also individuals who have received basic counseling or medical treatment is not correct.
    This indicator measures only the beneficiaries and does not count the individuals trained to
    detect gender-based violence instances. As a result, the Mission proposes not to make any
    change in this indicator.




                                                                                                       17
Based on actions described above, the Mission deems that appropriate action has been taken
to address Recommendation 1 and therefore, requests closure of the recommendation upon
issuance of the final report.

Recommendation 2. We recommend that USAID/Philippines direct the contractor in
writing to determine baseline data for indicators included in the monitoring and
evaluation plan and update performance targets as appropriate.

The Mission agrees with this recommendation. The Contract Officer Representative (COR)
communicated with PRISM2 through an e-mail dated February 20, 2013 (Attachment 2)
directing them to determine the baseline data for indicators included in the monitoring and
evaluation plan and to update the performance targets as appropriate. Prior to the official
email, and based on initial feedback from RIG, PRISM2 staff was working on including
baseline data in the M&E plan. The final M&E plan includes baseline data.

Based on actions described above, the Mission deems that appropriate action has been
taken to address Recommendation 2 and therefore, requests closure of the
recommendation upon issuance of the final report.

Recommendation 3. We recommend that USAID/Philippines, after revising the project
monitoring and evaluation plan and correcting reported results, assess the quality of
reported data.

The Mission concurs in principle with this recommendation, but feels it is overly broad. ADS
203, as currently revised, requires data quality assessments only for those indicators
reported to Washington, while suggesting that additional data quality assessments might be
conducted for indicators judged to be important to Mission decision making. Monitoring and
evaluation plans typically also include a variety of lower level input and output indicators that
are primarily relevant to the implementer. Pursuant to ADS 203, the Mission will assess the
quality of reported data for all indicators reported to Washington or judged important for
Mission decision-making.

For the PRISM2 Project, the Office of Health will conduct a DQA on those indicators which
are reported to Washington or judged important for project management. The Office of
Health will conduct the DQA assessment with the assistance of USAID/Philippines
Monitoring and Evaluation specialist.

The target completion date for this recommendation is December 31, 2013.

Recommendation 4. We recommend that USAID/Philippines amend Mission Order
203-1 to more explicitly direct all contracting officer’s representatives and agreement
officer’s representatives to conduct data quality assessments for their projects to (1)
verify that data collected on each project indicator meet all five quality standards
referenced in ADS 203.3.11.1 and (2) test the data’s accuracy and consistency.

The Mission concurs in principle with this recommendation, but feels it is overly broad. Per
ADS 203, data quality assessments are only required for indicators that are reported to
Washington and recommended for indicators that are judged to be important for Mission
decision-making. Pursuant to ADS 203, the Mission will direct, through a Mission Notice, all
contracting officer’s representatives and agreement officer’s representatives to conduct
required data quality assessments for their projects to (1) verify that data collected on each


                                                                                                    18
project indicator that is reported to Washington or that has been identified as important for
Mission decision-making meet all five quality standards referenced in ADS 203.3.11.1 and
(2) test that data’s accuracy and consistency. PRM will revise MO 203 accordingly.

The target completion date for this recommendation is December 31, 2013.

Recommendation 5. We recommend that USAID/Philippines amend Mission Order 203-1
to require the Program Office to evaluate assessments submitted by contracting officer’s
representatives and agreement officer’s representatives for completeness and document
the results. The office should return assessments they consider inadequate for
additional work.

The Mission concurs with this recommendation and will revise the Mission Order (M0) 203-1
to this end. The Mission currently has a clear process to review DQAs as outlined in MO
203-1, but will review the process for effectiveness, update as needed and revise the MO
accordingly.

The target completion date for this recommendation is December 31, 2013.

Recommendation 6. We recommend that USAID/Philippines require the contractor to
implement a strategy extending training to all target areas.

The Mission concurs with this recommendation. This recommendation is consistent with
what the PRISM2 Implementing Partner has already agreed to do.

It is acknowledged that rollout of core training programs has, to date, had limited coverage
across the project areas. However, as a technical assistance project, PRISM2’s training
strategy from the beginning was to assist DOH in developing standard curricula and work
with Centers for Health Development (CHDs) in establishing training systems, leveraging
public and private training institutions, to ensure sustainability of training programs for private
sector providers. Developing systems is inherently time consuming, hence the limited
coverage noted. As of early 2013, training systems were close to being established in three
CHDs, and the project aims to have systems in 10 out of the 13 CHDs by the end of the
project.

              Updated training data as of February 2013 in the current 36 sites:
                             Number of
               Training        People         No. of LMAs        % receiving
                course         Trained          covered            training
               FPCBT1        354              27               75
               IUD           65               8                22
               BTL           24               10               28
               NSV           1                1                3
               EINC          238              17               47
               FHSIS         623              28               78

In Year 3, recognizing the need to expand coverage of provider training within the project
sites, the Mission advised the project to complement the training system development focus
with direct assistance to support the training of private providers. This focused on fast


                                                                                                      19
tracking the conduct of trainings and expanding to all project sites. This strategy was
expounded in Section 6 (page 20) of PRISM2’s Year 4 Implementation Plan (Attachment 3).
PRISM2 will continue to build the capacity of existing private sector partners to become
accredited training providers of CHDs; at the same time, PRISM2 will utilize all contracting
vehicles at its disposal such as engagement of short-term technical assistance for training
roll-out, as well as issuing grants to qualified organizations to facilitate private providers
access to training. PRISM2 will ensure that the trainings follow the prescribed standards of
the Department of Health. The contractor-trainers engaged can then become part of
accredited training partners of the CHDs. These activities will ensure that training will be
extended to all target sites. USAID will further require that PRISM2 ensure broad geographic
coverage as it rolls out the direct training assistance.

Based on the actions described above, the Mission deems that appropriate actions have
been taken to address Recommendation 6 and therefore requests closure of the
recommendation upon issuance of the final report.

Recommendation 7. We recommend that USAID/Philippines determine the allowability
of $737,676 in questioned costs and recover from Chemonics International Inc. any
amounts determined to be unallowable.

USAID/Philippines notes this recommendation and we believe we have already addressed
this issue. As mentioned in the report, the contractor exceeded some budget line items from
the original contract due to changing circumstances of project implementation; however,
PRISM2 stayed within the total estimated cost of the contract and within funding availability.
The contracting officer approved a budget modification on January 10, 2013 which modified
the contract and realigned the budget. USAID/Philippines provided a hard copy of the
contract modification to the RIG on January 17, 2013 (Attachment 4). With the approval of
the budget realignment, the amount of $736, 676 is no longer in question.

Based on the actions described above, the Mission deems that appropriate actions have
been taken to address Recommendation 7 and therefore requests closure of the
recommendation upon issuance of the final report.

Recommendation 8. We recommend that USAID/Philippines implement written
procedures to shorten the response time to action requests and documents
submitted by the contractor for approval.

The Mission concurs with this recommendation and will take action to reinforce compliance
with written procedures. Specifically, we feel there are already written procedures that exist
that need to be reinforced. The Mission Director, as Mission Head of Contracting Activity, will
issue an Administrative Notice (Attachment 5) which reminds and informs all personnel
involved in procurement of their roles and responsibilities and notes that prompt response to
approval requests is required. In addition, the Mission Director will discuss the Administrative
Notice with all Office Chiefs.

The target completion date for this recommendation is May 31, 2013.




                                                                                                   20
Recommendation 9. We recommend that USAID/Philippines work with the contractor
to determine the feasibility of implementing a strategy to extend workforce outreach to
the remaining 23 target areas. If feasible, implement the strategy.

The Mission concurs and has already addressed this recommendation. To the extent
possible and within project resources, the Mission will extend the workforce coverage to all
project sites.

PRISM2 sub-contracted the Philippines Business Social Progress (PBSP) to rollout workforce
activities in 13 of the project’s 36 sites. These 13 were identified in collaboration between the
Project and PBSP, and reflect sites where PBSP is already active and where there are a large
numbers of informal work groups. Given the relatively short time remaining on the project when
the subcontract with PBSP was finalized, it was acknowledged that it would not be feasible for
them to initiate work in locations where they did not yet have relationships or familiarity. As
noted in the Year 4 Work Plan (Attachment 3), “the project will provide direct technical
assistance to key informal workforce groups in LMAs where PBSP are not focusing their efforts”
(Section 5.2, page 18). This technical assistance is part of the scope of work of PRISM2’s Local
Market Area Managers and Workforce Specialist. As of February 2013, the Project was directly
engaged with informal workforce groups in 7 non-PBSP sites and in process of identifying
informal workforce partners in other non-PBSP sites.

Based on the actions described above, the Mission deems that appropriate actions have been
taken to address Recommendation 9 and therefore requests closure of the recommendation
upon issuance of the final report.




                                                                                               21
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
